OFFICE OF THE ATTORNEY GENERAL
Capital Collateral

LISA-MARIE LERNER.
Assistant Attorney General

 

1515 North Flagler Drive, Suite 900
ASHLEY MOODY West Palm Beach, FL 33401

ATTORNEY GENERAL Phone (561) 837-5203 Fax (561) 837-5108

STATE OF FLORIDA LisaMarie. Lerner@myfloridalegal.com

February 15, 2021

The Honorable Scott S. Harris, Clerk
Office of the Clerk

United States Supreme Court

1 First Street, N.E.

Washington, D.C. 20543

Re: Leonardo Franqui v. State of Florida
Case No.: 20-7205
Request for Extension of Time/Capital Case

Dear Sir:

On February 16, 2021 Petitioner, Leonardo Franqui, filed his petition for writ of certiorari;
the brief in opposition is currently due March 24, 2021. The undersigned counsel has several
other petitions of certiorari currently pending in this court for which she needs to complete
briefs in opposition, has just finished a response to a motion for reconsideration in a federal
habeas petition, as well as various state court appearances and work, all on a capital cases,
during the time allotted for this brief in opposition. Consequently, the State is requesting an
extension of time to file its brief in opposition pursuant to Supreme Court Rules 15 and 30, a
fourteen (14) day extension, up to and including April 7, 2021.

No previous extensions have been requested. Counsel anticipates that the additional
fourteen days (14) will be sufficient time to prepare and to file the State’s Brief in Opposition
in this case.

Thank you for your consideration of this request.

Sincerely yours,

Ashley Moody

Attgrney General

Lisa-Marie Lerner
Assistant Attorney General

Copy sent to: Todd Scher at tscher@msn.com.
